September 29, 2000

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

VIKI M. BRENNAN
DISTRICT MANAGER, CENTRAL FLORIDA DISTRICT

SUBJECT:	 Audit Report - Review of the Violence Prevention and Response
          Programs in the Central Florida District (Report Number LB-AR-00-008)

This report presents the results of our review of the violence prevention and response
programs in the Central Florida District (Project Number 99EA007ER004). We engaged
a contractor, Williams Adley & Company, LLP, to assist us in conducting this audit. This
audit report is one of a series of reports on violence prevention and response efforts
within the Postal Service.

On the basis of our review, we concluded that required controls were not fully
implemented to reduce the potential for violence in the Central Florida District. Although
the district generally complied with the Threat Assessment Team Guide when reacting
to incidents of violence and generally complied with the policies and procedures in the
Crisis Management Plan for Incidents of Violence in the Workplace, it did not comply
with other violence prevention requirements. The vice president for the Southeast Area
did not agree with our overall conclusions, however, we believe the area and district
planned or implemented actions are responsive to the recommendations and address
the issues identified in this report. Therefore, we will not pursue resolution on this
disagreement at this time. Management’s comments and our evaluation of these
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Joyce Hansen, director, Labor Management-
Rosslyn, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: Patrick R. Donahoe
    Yvonne D. Maguire
    Anthony J. Vegliante
    John R. Gunnels
Review of the Violence Prevention and Response                               LB-AR-00-008
 Programs in the Central Florida District


                                  TABLE OF CONTENTS


Executive Summary                                                                i

Part I

Introduction 	                                                                   1

   Background                                                                    1
   Objective, Scope, and Methodology                                             1

Part II

Audit Results 	                                                                  2

   Potential for Violence in the District 	                                      2

   Implementation of Violence Prevention and Response Programs                  2
   Recommendations                                                             12
   Management’s Comments                                                       12
   Evaluation of Management’s Comments                                         13

Appendix A.	 Objective, Scope, and Methodology                                 14

Appendix B. 	 Statistical Sampling and Projections for Physical Security       16
              Reviews and the Existence of Crisis Management Plans for
              Facilities in the Central Florida District Fiscal Years 1997
              and 1998

Appendix C. 	 Sample of Physical Security Reviews Conducted and Crisis         18
              Management Plans on Site Reviews at Central Florida
              District Facilities Fiscal Years 1997 and 1998

Appendix D. 	 Statistical Sampling and Projections for Employees Trained       20
              in Workplace Violence Awareness in the Central Florida
              District June 1, 1997, through June 30, 1999

Appendix E. 	 Management’s Comments                                             22
Review of the Violence Prevention and Response                                 LB-AR-00-DRAFT
 Programs in the Central Florida District


                                  EXECUTIVE SUMMARY
 Introduction 	                This report presents the results of our review of violence
                               prevention and response efforts within the Central Florida
                               District, located in the Southeast Area. The Central Florida
                               District was one of six districts randomly selected from the
                               nine districts within the Southeast Area.

                               The Office of Inspector General (OIG) engaged a
                               contractor, Williams Adley & Company, LLP, to conduct
                               fieldwork and data analysis, prepare working papers, and
                               draft reports. The OIG provided technical support, statistical
                               projections, and quality assurance reviews. The OIG and
                               the contractor prepared the final report.

                               Our objective was to determine whether the Central Florida
                               District implemented Postal Service policies regarding
                               violence prevention and response programs.

 Results in Brief	             On the basis of the review, we concluded that required
                               controls were not fully implemented to reduce the potential
                               for violence in the Central Florida District. The district
                               generally complied with the Threat Assessment Team
                               Guide when reacting to incidents of violence. The district:

                               •	 Expanded its threat assessment team core membership
                                  to include all district plant managers.

                               •	 Communicated and enforced the zero tolerance policy.

                               •	 Developed a zero tolerance action plan to manage
                                  threats.

                               •	 Engaged in case management.

                               •	 Conducted the two-day threat assessment team
                                  orientation training.

                               The Central Florida District also generally complied with the
                               policies and procedures outlined in the Crisis Management
                               Plan for Incidents of Violence in the Workplace. We used a
                               statistical sample to project that at least 93 percent of the
                               district facilities had local customized crisis management
                               plans on site. (See Appendices B and C.)



                                                 i
Review of the Violence Prevention and Response                                  LB-AR-00-DRAFT
 Programs in the Central Florida District


                               However, the Central Florida District Threat Assessment
                               Team and violence prevention program were not
                               implemented until January 1999. The district manager
                               could not provide documentation or a reason for not
                               implementing the team or the violence prevention program
                               in 1997 and accepted responsibility. Additionally, since
                               January 1999, the district has not fully implemented
                               required proactive strategies designed to prevent violence
                               from occurring, as required by the Threat Assessment Team
                               Guide. The district did not follow many of the policies and
                               procedures because it believed some were not applicable to
                               all situations in their district.

                               Our audit also disclosed that the Central Florida District did
                               not:

                               •   Conduct annual physical security reviews.
                               •   Monitor and evaluate climate indicators.
                               •   Measure team performance.
                               •   Mandate violence awareness training.

 Summary of 	                  We offered four recommendations to the vice president,
 Recommendations 	             Southeast Area Operations and the manager, Central
                               Florida District, designed to ensure controls are
                               implemented to improve the effectiveness of the district’s
                               violence prevention program.

 Summary of                    The vice president Southeast Area Operations observed
 Management’s                  that the OIG report focused on the condition of the violence
 Comments                      awareness programs in fiscal year (FY) 1997 and 1998. He
                               stated that because the OIG based its August 2000
                               conclusions on data obtained before June 1999 (the
                               majority of which is FY 1997 and FY 1998), the conclusions
                               are misleading and not an accurate representation of the
                               current state of the Central Florida program. The vice
                               president emphasized that the Southeast Area remains
                               committed to the appropriate implementation of the policies
                               and procedures regarding workplace violence.

                               The Central Florida District manager responded to all of the
                               OIG recommendations stating in FY 2000, security reviews
                               would be conducted in all offices and all supervisors,
                               managers, and craft employees would receive the required
                               violence awareness training. She also stated that a




                                                 ii
Review of the Violence Prevention and Response                                   LB-AR-00-DRAFT
 Programs in the Central Florida District


                               systemic approach to analyzing relevant climate indicators
                               would be initiated in early FY 2001. She also stated that
                               beginning in August 1999, performance measurements
                               would take place using a database that tracks all credible
                               threats.

                               We have summarized management's comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Overall Evaluation of         We disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998. Some data was used for
                               those fiscal years because they were the latest complete
                               fiscal years at the time of our visit. Interviews with postal
                               officials, however, regarding their implementation of
                               proactive strategies occurred in September 1999.

                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the district’s
                               planned or implemented actions are responsive to the
                               recommendations and address the issues identified in this
                               report.




                                                 iii
Review of the Violence Prevention and Response                                                           LB-AR-00-008
 Programs in the Central Florida District


                                               INTRODUCTION
    Background                       The Postal Service recognizes the importance of ensuring
                                     the safety of its employees by creating and maintaining a
                                     work environment that is violence-free. This concept
                                     emphasizes using a viable workplace violence prevention
                                     program as a first step in helping to ensure a violence-free
                                     workplace. An effective program depends on a universal
                                     zero tolerance policy and a zero tolerance action plan that is
                                     consistently implemented for the management of threats,
                                     assaults, and other inappropriate workplace behavior.

                                     The Postal Service established the following initiatives and
                                     strategies to prevent and minimize the potential risk for
                                     violence in the workplace:

                                     •	 The Joint Statement on Violence and Behavior in the
                                        Workplace states the Postal Service’s position that
                                        violent and inappropriate behavior will not be tolerated
                                        by anyone at any level of the Postal Service.

                                     •	 The Threat Assessment Team Guide, Publication 108,
                                        and the Crisis Management Plan for Incidents of
                                        Violence in the Workplace, Publication 107,1 require
                                        districts to develop appropriate threat assessment and
                                        crisis management teams, as well as team plans of
                                        operation.

                                     •	 The Administrative Support Manual requires security
                                        control officers or their designees to conduct annual
                                        physical security reviews at all facilities.

    Objective, Scope, and            Our objective was to determine whether the Central Florida
    Methodology                      District implemented Postal Service policies regarding
                                     violence prevention and response programs.

                                     The Office of Inspector General (OIG) engaged a contractor
                                     to conduct fieldwork and data analysis, prepare working
                                     papers, and draft reports. The OIG provided technical
                                     support, statistical projections, and quality assurance
                                     reviews. The OIG and the contractor prepared the final
                                     report. (See Appendix A for complete Objective, Scope,
                                     and Methodology details.)

1
    The Crisis Management Plan for Incidents of Violence in the Workplace is currently under revision.




                                                            1
Review of the Violence Prevention and Response                                    LB-AR-00-008
 Programs in the Central Florida District


                                      AUDIT RESULTS
 Potential for Violence        On the basis of the review, we concluded that required
 in the District               controls were not fully implemented to reduce the potential
                               for violence in the Central Florida District. Although the
                               district generally complied with the Threat Assessment
                               Team Guide when reacting to incidents of violence and
                               generally complied with the policies and procedures in the
                               Crisis Management Plan for Incidents of Violence in the
                               Workplace, it did not comply with other violence prevention
                               requirements.

                               Districts that do not comply with these requirements face an
                               increased risk for violence in their facilities. Such violence
                               increases stress, inflicts emotional wounds, and lowers
                               employee morale. Organizationally, it diminishes credibility,
                               decreases productivity, creates work-specific tension, and
                               may lead to damage of property.

 Implementation of             The Central Florida District generally complied with the
 Violence Prevention           Threat Assessment Team Guide when reacting to incidents
 and Response                  of violence. The district:
 Programs
                               •	 Expanded its threat assessment team core membership
                                  to include all district three plant managers.

                               •	 Communicated and enforced the zero tolerance policy.

                               •	 Developed a zero tolerance action plan to manage

                                  threats. 


                               •	 Engaged in case management.

                               •	 Conducted the two-day threat assessment team
                                  orientation training.

                               The Central Florida District also generally complied with the
                               policies and procedures outlined in the Crisis Management
                               Plan for Incidents of Violence in the Workplace. We used a
                               statistical sample to project that at least 93 percent of the
                               district facilities had plans on site. (See Appendices B and
                               C.)

                               However, the Central Florida District Threat Assessment
                               Team and violence prevention program was not



                                                 2
Review of the Violence Prevention and Response                                                           LB-AR-00-008
 Programs in the Central Florida District


                                    implemented until January 1999. The district manager
                                    could not provide documentation or a reason for not
                                    implementing the team or the violence prevention program
                                    in 1997 and accepted responsibility. Additionally, since
                                    January 1999, the district did not fully implement proactive
                                    strategies designed to prevent violence from occurring, as
                                    required by the Threat Assessment Team Guide. The
                                    district did not follow many of the policies and procedures
                                    because it believed that some controls were not applicable
                                    to all situations in the district. As a result, required controls
                                    were not fully implemented to reduce the potential for
                                    violence in the workplace.

                                    Our audit disclosed that the Central Florida District did not:

                                    •    Conduct annual physical security reviews.
                                    •    Monitor and evaluate climate indicators.
                                    •    Measure team performance.
                                    •    Mandate violence awareness training.

    Physical Security               The district did not conduct annual physical security reviews
    Reviews                         in all facilities as mandated by the Postal Service
                                    Administrative Support Manual. The security control officer
                                    stated that he was unaware of the requirement for annual
                                    physical security reviews.

                                    The Postal Service Administrative Support Manual,
                                    Chapter 2,Section 27, requires the security control officer or
                                    a designee to conduct annual physical security reviews at
                                    all Postal Service facilities to ensure that the appropriate
                                    attention is given to security issues.2

                                    We used a statistical sample to project that the district
                                    conducted no more than 16 (7 percent) of the 207 required
                                    annual physical security reviews in FY 1997 and FY 1998.
                                    (See Appendices B and C.)

                                    The lack of physical security reviews at Postal Service
                                    facilities may increase the risk of workplace violence or the
                                    loss or destruction of Postal Service property and the mail.




2
  The Chief Postal Inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility liaison with the Postal Inspection Service on all security matters.




                                                           3
Review of the Violence Prevention and Response                                                      LB-AR-00-008
 Programs in the Central Florida District


    Climate Indicators 	          We found that the Central Florida District did not monitor
                                  and evaluate climate indicators because it believed that the
                                  requirement in the Threat Assessment Team Guide was not
                                  mandatory. Therefore, the district did not identify and follow
                                  up on events that could escalate the potential for violence.
                                  As a result, controls associated with identifying and
                                  assessing indicators were not used to reduce the potential
                                  for violence in the workplace.

                                  The guide outlines several climate indicators that are
                                  relevant for review when making such determinations.
                                  Among those indicators are grievances, Equal Employment
                                  Opportunity complaints, referrals to the Employee
                                  Assistance Program, and labor-management relationships.3

                                  We reviewed several climate indicators that management
                                  could use as benchmarks to assess the workplace climate
                                  and identify locations that may require a climate
                                  assessment.

                                  Grievances. Exhibit 1 shows the Central Florida District
                                  had the third highest ratio (43:100) in the Southeast Area of
                                  step 3 grievance appeals to employees for the period
                                  June 1997, through June 30, 1999.4




3
  We considered the results of the Voice of the Employee Survey as an indicator of labor-management relationships.
4
  In a report entitled “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1, GAO reported that a ratio of 13:100 grievances to employee was a high
ratio. Union and management officials did not dispute this claim.




                                                        4
Review of the Violence Prevention and Response                                    LB-AR-00-008
 Programs in the Central Florida District



                               For the same period, Exhibit 2 shows the district had the
                               second highest ratio (38:100) of step 3 contract-related
                               grievance appeals to employees.




                               The district had one of the second highest ratios (6:100) of
                               step 3 discipline-related grievance appeals to employees,
                               for the same period, as shown in Exhibit 3.




                                                 5
Review of the Violence Prevention and Response                                    LB-AR-00-008
 Programs in the Central Florida District



                               Equal Employment Opportunity Complaints. Exhibit 4
                               shows that during the period June 1, 1997, to June 30,
                               1999, the district shared the third highest ratio (1:18) of
                               Equal Employment Opportunity formal complaints to
                               employees in the Southeast Area.




                                                 6
Review of the Violence Prevention and Response                                                     LB-AR-00-008
 Programs in the Central Florida District



                                  Employee Assistance Program Cases. For the same
                                  period, the district shared the second highest ratio (1:8) of
                                  total precase activity5 Employee Assistance Program
                                  cases per employee as depicted in Exhibit 5.




5
 The total precase activity contacts include all those employees, family members, or supervisors who made contact
with the Employee Assistance Program either through telephone or in person to set up appointments with an
Employee Assistance Program counselor.




                                                        7
Review of the Violence Prevention and Response                                                         LB-AR-00-008
 Programs in the Central Florida District



                                   Voice of the Employee Survey Results. A majority of
                                   employees who responded to the Voice of the Employee6
                                   survey in the Central Florida District were satisfied with
                                   their work environment. As shown in Exhibits 6 and 7, the
                                   number of employees who responded favorably to their
                                   workplace environment ranged from about 45 percent for
                                   quarter 4 of 1998, to about 49 percent of employees
                                   responding in quarters 1, 2, and 3 of 1999. The number
                                   of employees who responded unfavorably to their
                                   workplace environment, ranged from 31 percent in
                                   quarter 4, 1998 to about 28 percent in quarters 1, 2, and 3
                                   of 1999. In addition, about 23 percent of the employees,
                                   who responded for the same quarters remained neutral.




6
  The Voice of the Employee Survey is a data collection instrument that the Postal Service has established to help
improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,
have opportunities to participate and take pride in being postal employees.




                                                          8
Review of the Violence Prevention and Response                                   LB-AR-00-008
 Programs in the Central Florida District




                               While these indicators cannot be used as the sole basis for
                               reaching conclusions concerning the district’s workplace
                               environment, the threat assessment team can use them to
                               assess the potential for violence in the district.

                               Climate Assessments. The Central Florida District
                               conducted two climate assessments during our audit period.
                               However, the climate assessments were not a result of the
                               district’s evaluation of any of the climate indicators
                               discussed earlier. The employee and workplace
                               intervention analyst conducted the two climate assessments
                               at the request of postal management and a union official
                               because of workplace problems. Routine analysis of
                               climate indicators may have identified the need for climate
                               assessments at these sites before problems occurred.

                               For example, in December 1998 due to a slow-down in work
                               production, postal management requested a work climate
                               assessment at a post office. The climate assessment
                               described the office as being “out of control” prior to the
                               arrival of existing management. The results were provided
                               to the officer in charge of the post office, who developed a
                               corrective action plan to improve the workplace climate.

                               In May 1999 at the request of a union official who alleged
                               that a supervisor at a post office engaged in volatile




                                                 9
Review of the Violence Prevention and Response                                     LB-AR-00-008
 Programs in the Central Florida District


                               behavior contrary to the zero tolerance policy, a work
                               climate intervention assessment was conducted at a post
                               office. The employee and workplace intervention analyst
                               spoke with several employees at the facility and provided
                               craft employees with the Voice of the Employee training.

                               The district could improve its process for evaluating the
                               workplace climate by proactively identifying and monitoring
                               sites or situations that have the potential for violence.
                               Reviewing the indicators on a periodic basis could provide
                               valuable information about conflict in district facilities.

 Measurement of Threat The Central Florida District’s Threat Assessment Team did
 Assessment Team       not establish performance measures as required by the
 Performance           Threat Assessment Team Guide. The Human Resources
                       manager told us that the team has only been in place for a
                       relatively short period and has not developed performance
                       measures. Without performance measures, the team could
                       not objectively measure the effect their violence prevention
                       efforts had on workplace climate and operations.

                               Performance measures help reduce the risk of violence in
                               the workplace because they provide objective information to
                               management on baseline performance and measure the
                               effect of the violence prevention program. Objective data
                               can be obtained through the use of surveys, the number
                               and types of threats and assaults, the tracking system, and
                               post-incident analysis of each violent incident.

 Violence Awareness            The district did not provide workplace violence awareness
 Training                      training for all district managers, supervisors, and craft
                               employees in accordance with the Threat Assessment
                               Team Guide because the district did not consider the
                               training mandatory. Employees who have not received
                               violence awareness training may not be effective in
                               preventing violence in the workplace.

                               The Threat Assessment Team Guide states that every
                               Postal Service manager and supervisor should complete
                               eight hours of workplace violence awareness program
                               training and four hours of follow-up training. Training topics
                               should include defusing a difficult situation and providing
                               effective supervision. In September 1998, Postal Service
                               management mandated one hour of violence awareness
                               training for craft employees, supervisors, and managers.




                                                 10
Review of the Violence Prevention and Response                                                           LB-AR-00-008
 Programs in the Central Florida District



                                      The Central Florida District workplace violence awareness
                                      training consisted of:

                                      •	 An eight-hour workplace violence awareness training
                                         course designed for managers and supervisors.

                                      •	 A condensed four-hour workplace violence awareness
                                         training course primarily for managers and supervisors.

                                      •	 A one-hour combination lecture and video for managers,
                                         supervisors, and craft employees.

                                      •	 Stand-up sessions on a recurring basis for all employees
                                         at the district’s facilities.7

                                      •	 Television displays concerning workplace violence
                                         shown at the facilities to be viewed by all employees.

                                      We used a statistical sample to project the number of
                                      managers, supervisors, and craft employees who had
                                      attended violence awareness training from June 1, 1997,
                                      through June 30, 1999. We projected that no more than
                                      217 (27 percent) of the 807 managers and supervisors
                                      received both the eight-hour workplace violence awareness
                                      training and the four-hour follow-up course. We projected
                                      that up to 665 (82 percent) of the 807 managers and
                                      supervisors in the district, received some workplace
                                      violence awareness training, ranging from 1 to 80 hours, but
                                      did not meet the specific 12-hour criterion. For the same
                                      period, we projected that up to 137 (17 percent) of the
                                      807 managers and supervisors had no violence awareness
                                      training. (See Appendix D.)

                                      The employee and workplace intervention analyst told us
                                      that since January 1999, she conducted one-hour training
                                      sessions on workplace violence using the “Building a Better
                                      Workplace” video and lecture for craft employees. We
                                      projected that at least 2,667 (28 percent) of the 9,434 craft




7
    We did not verify attendance at the stand-up sessions because the district did not maintain a record of attendees.




                                                            11
Review of the Violence Prevention and Response                                     LB-AR-00-008
 Programs in the Central Florida District



                               employees in the Central Florida District did not receive the
                               required one-hour violence awareness training course.
                               (See Appendix D.)

                               The Postal Service has recognized violence awareness
                               training for supervisors, managers, and craft employees as
                               a vital component in preventing violence in the workplace.
                               This training is mandatory because employees need
                               effective tools to recognize the warning signs of violence
                               and possibly defuse difficult situations.

 Recommendations               We recommend that the vice president, Southeast Area
                               Operations, and Central Florida District manager implement
                               controls to improve the effectiveness of the district’s
                               violence prevention program. Specifically:

                               1. Conduct annual physical security reviews at all district
                                  facilities.

                               2. Monitor and evaluate climate indicators to identify
                                  conflict that could lead to violence in the workplace.

                               3. Establish performance measures to gauge team
                                  performance.

                               4. Mandate attendance at violence awareness training for
                                  all supervisors, managers, and craft employees.

 Management’s                  The vice president Southeast Area Operations observed
 Comments                      that the OIG report focused on the condition of the violence
                               awareness programs in FY 1997 and FY 1998. He stated
                               that because the OIG based its August 2000 conclusions on
                               data obtained before June 1999 (the majority of which is
                               FY 1997 and FY 1998), the conclusions are both misleading
                               and not an accurate representation of the current state of
                               the Central Florida program. The vice president added that
                               the Southeast Area disagrees with the general conclusion
                               that since January 1999, the district had not fully
                               implemented the necessary strategies. However, he states
                               that the Central Florida District implemented measures to
                               improve the violence prevention program, and is in general
                               agreement with the recommendations. The vice president
                               noted that in FY 2000, the district conducted the required
                               annual security review and mandated the required violence



                                                 12
Review of the Violence Prevention and Response                                     LB-AR-00-008
 Programs in the Central Florida District


                               prevention training for managers, supervisors, and craft
                               employees. He also noted that the district was establishing
                               a formal process for reviewing relevant climate indicators
                               and would use a database to measure threat assessment
                               team performance.

                               The Central Florida District manager responded to all of the
                               OIG recommendations stating in FY 2000, security reviews
                               would be conducted in all offices and all supervisors,
                               managers, and craft employees would receive the required
                               violence awareness training. The district manager also
                               stated that the district would initiate a more systemic
                               approach to analyzing climate indicators and that a formal
                               process would be established at the beginning of FY 2001.
                               She noted that the district has developed a database to
                               measure threat assessment team performance.

                               We have summarized management's comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Evaluation of                 While we disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999. We do
                               acknowledge that some time lapsed between the
                               completion of our fieldwork and release of our draft report to
                               management due to the application of this review at
                               24 other districts. Yet, we believe the report presents a fair
                               portrayal of the district’s threat assessment program.

                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the area and
                               district planned or implemented actions are responsive to
                               the recommendations and address the issues identified in
                               this report.




                                                 13
Review of the Violence Prevention and Response                                                    LB-AR-00-008
 Programs in the Central Florida District


         APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
The OIG and the contractor reviewed applicable laws, policies, procedures, climate
assessments, and other documents, such as the Postal Inspection Service’s Assault
and Threats Incident Reports and investigative worksheets. The OIG and the contractor
also reviewed United States General Accounting Office (GAO) reports related to labor-
management issues.

The OIG and the contractor interviewed Postal Service officials in the Central Florida
District, Southeast Area, and headquarters to obtain information about the Postal
Service workplace environment, and the procedures and policies implemented to
ensure a safe and violence-free workplace.

To determine the district's compliance with policies and procedures, the OIG and the
contractor reviewed the district's threat assessment team activities, zero tolerance
policy, and crisis management plan. The OIG and the contractor compared the
activities, policies, and plans to the Postal Service requirements for violence prevention
and response strategies. The district's initiatives for addressing workplace
environmental climate issues, including training programs on violence prevention and
response were also reviewed.

The OIG and the contractor reviewed individual threats documented by the threat
assessment teams in the Southeast Area for the period June 1, 1997, through June 30,
1999, to determine if the team assessed the risk posed by the threats. The contractor
engaged a Violent Crime Consultant to determine whether the threat assessment team
assigned the correct priority risk level for threats in the Central Florida District. The OIG
selected the Central Florida District because of the types of hotline complaints and
congressional inquiries that the OIG had received regarding the district.

The OIG and the contractor reviewed climate indicators outlined in the Threat
Assessment Team Guide that may help the threat assessment team develop preventive
measures to moderate risk and liability. Those climate indicators were the numbers of
employee grievances, Equal Employment Opportunity complaints, and Employee
Assistance Program cases for all districts in the Southeast Area, including the Central
Florida District, for all or part of the period of June 1, 1997, through June 30, 1999.8 For
the same period, the OIG and the contractor reviewed the workplace climate
assessments for the Central Florida District. The OIG and the contractor also reviewed
results from the 1998 and the 1999 Voice of the Employee surveys conducted in the
Central Florida District. We reviewed this data as indicators of conflict that could lead to
violence in the Central Florida District. The OIG and the contractor compared indicators
in the Central Florida District to the same indicators in other districts within the
Southeast Area.9

8
  The OIG selected this audit period because the Postal Service published the Threat Assessment Team Guide and 

Crisis Management Plan for Incidents of Violence in the Workplace in May 1997. 

9
  The OIG obtained this data from Postal Service databases. We did not verify the accuracy of the data. 





                                                      14
Review of the Violence Prevention and Response                                                               LB-AR-00-008
 Programs in the Central Florida District



For FY 1997 and 1998, the OIG projected the number of facilities where district officials
conducted annual physical security reviews and maintained crisis management plans
on site.10 We used statistical sampling methodologies to project these numbers. (See
Appendices B and C.)

For the period June 1, 1997, through June 30, 1999, OIG projected the number of
managers, supervisors, and craft employees who received the required number of
hours of workplace violence awareness training. We used statistical sampling
methodologies to project these numbers.11 (See Appendix D.)

The OIG and the contractor conducted the audit from September 1999 through
April 2000, in accordance with generally accepted government auditing standards and
included such tests of internal controls as were considered necessary to fulfill the
objectives of the audit plan. The OIG and the contractor discussed the conclusions and
observations with appropriate management officials and included their comments,
where appropriate.




10
   The OIG obtained this data from Postal Service databases. We did not verify the accuracy of the data, however,
the audit team made every effort to clean the database to include only sites that fell under Postal Service violence
prevention and threat assessment guidelines. The team effort, therefore, included removing locations such as
contractor-only facilities, parking lots, land, and antenna sites from the data provided to arrive at the facility population
size.
11
   See footnote number 9.




                                                             15
Review of the Violence Prevention and Response                                     LB-AR-00-008
 Programs in the Central Florida District


                                         APPENDIX B
   STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
      SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
 MANAGEMENT PLANS FOR FACILITIES IN THE CENTRAL FLORIDA
            DISTRICT FISCAL YEARS 1997 AND 1998

Purpose of the Sampling

One of the objectives of this audit was to assess Central Florida District implementation
of Postal Service policy regarding physical security reviews and crisis management
plans. In support of this objective, the audit team employed a simple random attribute
sample design that allows statistical projection of responses from individual facilities
within the Central Florida District.

Definition of the Audit Universe

The audit universe consisted of 207 facilities; specifically post offices, stations,
branches, postal stores, and processing and distribution centers. Central Florida
District management was the source of the universe data. We did not verify the
accuracy of the data, however, the audit team made every effort to include only sites
that fell under Postal Service violence prevention and threat assessment guidelines.
The team effort, therefore, included removing locations such as contractor-only facilities,
parking lots, land, and antenna sites from the data provided, to arrive at the above-
stated 207-facility population size.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 35 facilities for
review. This sample size was planned to select facilities at the second stage of a two-
stage design and was, therefore, not designed to provide a predetermined level of
precision for an individual district projection. In changing to district-level projections, the
audit team agreed to accept whatever level of precision derived from the existing
sample size. Three separate attributes were included for the facility analysis.
Appendix C is a list of the 35 facilities that were randomly selected to determine which
facilities had physical security reviews conducted on them, and had crisis management
plans on hand.

Statistical Projections of the Sample Data

All attributes are projected to the universe of 207 facilities. There were no differences in
the universe for FY 1997 versus FY 1998 data.




                                                 16
Review of the Violence Prevention and Response                                  LB-AR-00-008
 Programs in the Central Florida District


For each of the three attributes analyzed, the Central Florida District results included
either a very low or very high number of “positive” responses. In each case the
precision of the sample was analyzed using the hypergeometric adaptation of the
binomial attribute table for controls testing, found in GAO’s Financial Audit Manual.
Because the population size is small, the tabulated values (for 95 percent reliability)
were adjusted by the corresponding hypergeometric finite population correction, ((N-
n)/(N-1))^0.5.

Attribute 1: Physical Security Reviews Conducted In FY 1997

Based on a projection of the sample results, we are 95 percent confident that no more
than 16 (7 percent) of the Central Florida District facilities conducted a physical security
review in FY 1997. The unbiased point estimate is zero facilities.

Attribute 2: Physical Security Reviews Conducted In FY 1998

Based on a projection of the sample results, we are 95 percent confident that no more
than 16 (7 percent) of the Central Florida District facilities conducted a physical security
review in FY 1998. The unbiased point estimate is zero facilities.

Attribute 3: Crisis Management Plans On Site

Based on a projection of the sample results, we are 95 percent confident that no more
than 16 (7 percent) of the Central Florida District facilities did not have a copy of the
district crisis management plan. The unbiased point estimate is zero facilities without
the crisis management plan.




                                                 17
Review of the Violence Prevention and Response                                LB-AR-00-008
 Programs in the Central Florida District


                                         APPENDIX C
      SAMPLE OF PHYSICAL SECURITY REVIEWS CONDUCTED AND
      CRISIS MANAGEMENT PLANS ON SITE REVIEWS AT CENTRAL
      FLORIDA DISTRICT FACILITIES FISCAL YEARS 1997 AND 1998
                                                                PHYSICAL          CRISIS
                                                                SECURITY       MANAGEMENT
ITEM                                                   ZIP      REVIEWS           PLANS
 NO.    TYPE OF FACILITY                LOCATION      CODE     CONDUCTED         ON SITE
                                                              FY 97   FY 98

  1     Aloma Annex             Winter Park           32793    NO      NO            YES
  2     Five Points Station     Cocoa                 32924    NO      NO            YES
  3     Clermont                Clermont              34711    NO      NO            YES
  4     East Side Station       Altamonte Springs     32701    NO      NO            YES
  5     Apollo Annex            Melbourne             32935    NO      NO            YES
  6     Moore Haven Main        Moore Haven           33471    NO      NO            YES
        Post Office
  7     Downtown Station        West Palm Beach       33402    NO      NO            YES
  8     Debray                  Debray                32713    NO      NO            YES
  9     Vero Beach              Vero Beach            32960    NO      NO            YES
 10     Lake Worth              Lake Worth            33461    NO      NO            YES
 11     Oak St. Station         Kissimmee             34741    NO      NO            YES
 12     W. Palmetto Park        Boca Rotan            33486    NO      NO            YES
        Carrier Annex
 13     Windermere              Windermere            34786    NO      NO            YES
 14     Orlando                 Orlando               32862    NO      NO            YES
 15     Christmas               Christmas             32709    NO      NO            YES
 16     North Palm Beach        West Palm Beach       33408    NO      NO            YES
        Branch
 17     Oakland                 Oakland               34760    NO      NO            YES
 18     Palm Bay Branch         Palm Bay              32905    NO      NO            YES
 19     Growth Management       Orlando               32872    NO      NO            YES
 20     Lake Monroe             Lake Monroe           32747    NO      NO            YES
 21     Orange Blossom          Orlando               32805    NO      NO            YES
 22     Wabasso                 Wabasso               32970    NO      NO            YES
 23     Lockhart Branch         Orlando               32810    NO      NO            YES
 24     Singer Island Branch    Rivera Beach          33404    NO      NO            YES
 25     Gotha                   Gotha                 34734    NO      NO            YES
 26     Palmetto Park Postal    Boca Rotan            33486    NO      NO            YES
        Store
 27     Lake Park Branch        Lake Park             33403    NO      NO            YES
 28     Northwood Retail        W. Palm Beach         32701    NO      NO            YES
 29     Deland Carrier          Deland                32720    NO      NO            YES
        Annex




                                                 18
Review of the Violence Prevention and Response                                LB-AR-00-008
 Programs in the Central Florida District



                                                                PHYSICAL          CRISIS
                                                                SECURITY       MANAGEMENT
ITEM                                                   ZIP      REVIEWS           PLANS
 NO.    TYPE OF FACILITY                LOCATION      CODE     CONDUCTED         ON SITE
                                                              FY 97   FY 98
 30     Aloma Branch            Winter Park           32793    NO      NO            YES
 31     Mid-Florida P & DC      Mid-Florida           32799    NO      NO            YES
 32     Haines Creek Branch     Leesburg              34788    NO      NO            YES
 33     Downtown Station        Delray                33444    NO      NO            YES
 34     Greenacres Branch       Lake Worth            33463    NO      NO            YES
 35     Vero Beach Annex        Vero Beach            32960    NO      NO            YES




                                                 19
Review of the Violence Prevention and Response                                 LB-AR-00-008
 Programs in the Central Florida District


                                         APPENDIX D
  STATISTICAL SAMPLING AND PROJECTIONS FOR EMPLOYEES
TRAINED IN WORKPLACE VIOLENCE AWARENESS IN THE CENTRAL
    FLORIDA DISTRICT JUNE 1, 1997, THROUGH JUNE 30, 1999

Purpose of the Sampling

One of the objectives of this audit was to assess Central Florida District implementation
of Postal Service policy to train supervisors/managers and craft employees in conflict
resolution and workplace violence awareness. In support of this objective, the audit
team conducted statistical samples of personnel from each of the two groups. We used
a simple random attribute sample design in both cases.

Definition of the Audit Universe

For the craft employee assessment, the audit universe consisted of 9,434 craft
employees in the Central Florida District. For the supervisory-level assessment, the
audit universe consisted of 807 supervisors and managers.

All training information came from the Postal Service personnel database in
Minneapolis, Minnesota.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 50 craft
employees and 50 managers and supervisors for review. This sample size was
planned to select employees at the second stage of a two-stage design and was,
therefore, not designed to provide a predetermined level of precision for an individual
district projection. In changing to district-level projections, the audit team agreed to
accept whatever level of precision derived from the existing sample size. Three
separate attributes were included for the supervisory-level training analysis.

Statistical Projections of the Sample Data

In general, the sample data were analyzed based on the estimation of a population
proportion for a simple random sample as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c. 1990.

In some cases, a low number of “positive” responses in the sample required analysis
using the hypergeometric adaptation of the binomial attribute table for controls testing,
found in the GAO’s Financial Audit Manual. The tabulated values (for 95 percent
reliability) are adjusted by the hypergeometric finite population correction, ((N-n)/(N-
1))^0.5.




                                                 20
Review of the Violence Prevention and Response                                  LB-AR-00-008
 Programs in the Central Florida District


Results are presented for a one-sided confidence interval as well as the point estimate.
For the collection of supervisory attributes, the sum of the point estimates will equal the
total population. A sum of the upper bounds is meaningless because any increases in
one category would be offset by reductions in another.

Craft Employee Training Projection

Based on a projection of the sample results, we are 95 percent confident that at least
2,667 (28 percent) of the 9,434 craft employees in the Central Florida District did not
receive training in workplace violence awareness. The unbiased point estimate is 60
percent, or 5,660 employees, met the training criterion.

Supervisors and Managers Training Projection

Based on a projection of the sample results, we are 95 percent confident that up to 137
(17 percent) of the 807 Central Florida District supervisors and managers received no
workplace violence awareness training. The unbiased point estimate is 10 percent, or
81 supervisors and managers, who received no subject-matter training.

Based on a projection of the sample results, we are 95 percent confident that up to 665
(82 percent) of the 807 Central Florida District supervisors and managers received
some subject-matter training, possibly as part of other supervisory courses ranging from
1 to 80 hours, but did not meet the specific 12-hour criterion. The unbiased point
estimate is 72 percent, or 581 supervisors and managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 217 (27 percent) of the 807 Central Florida District supervisors and managers met
or exceeded the 12-hour subject-matter training criterion. The unbiased point estimate
is that 18 percent, or 145 supervisors and managers, met the 12-hour criterion.




                                                 21
Review of the Violence Prevention and Response        LB-AR-00-008
 Programs in the Central Florida District


                  APPENDIX E. MANAGEMENT'S COMMENTS




                                                 22
Review of the Violence Prevention and Response        LB-AR-00-008
 Programs in the Central Florida District




                                                 23
Review of the Violence Prevention and Response        LB-AR-00-008
 Programs in the Central Florida District




                                                 24
Review of the Violence Prevention and Response        LB-AR-00-008
 Programs in the Central Florida District




                                                 25
Review of the Violence Prevention and Response        LB-AR-00-008
 Programs in the Central Florida District




                                                 26
